GR-90-98-011
U.S. DEPARTMENT OF JUSTICE

 
Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE WATSONVILLE POLICE DEPARTMENT
CALIFORNIA
GR-90-98-011
MARCH 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of three
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Watsonville Police Department (WPD), California.
The WPD received a grant of $150,000 to hire 2 sworn officers under the Funding
Accelerated for Smaller Towns (FAST), $565,718 to hire 4 sworn officers under the
Universal Hiring program (UHP), and $91,425 to redeploy 3.5 sworn officer full-time
equivalents (FTEs) into community policing under the Making Officer Redeployment Effective
(MORE) program for 1995. The purpose of the additional officers under each of the grant
programs is to enhance community policing efforts.
In brief, our audit determined that the WPD violated the following grant conditions:


- The WPD overcharged the FAST grant for unallowable uniform allowance ($512) and
    bilingual pay ($863). Total questioned costs were $1,375.
- The WPD was unable to demonstrate the redeployment of 3.5 sworn officers (FTEs) from
    the purchase of computer equipment charged to the MORE 95 grant. This resulted in
    unsupported costs (questioned cost) of $55,353.
- The WPD submitted an erroneous reimbursement request which resulted in a $11,246
    overpayment to the FAST grant.
- Financial Status Reports for the FAST and MORE 95 grants were not submitted timely.
#####